Case: 19-10065

Document: 00515297651

Page: 1

Date Filed: 02/04/2020

IN THE UNITED STATES COURT OF APPEALS
Court of Appeals
FOR THE FIFTH CIRCUIT United States
Fifth Circuit

FILED
No. 19-10065

February 4, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
ASTON CHARLES BUTLER,
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas
Before KING, COSTA, and HO, Circuit Judges.
GREGG COSTA, Circuit Judge:
Added to the statute books in 1934 just a few months after Bonnie and
Clyde’s crime spree came to an end, bank robbery is now one of the classic
federal crimes. The first section of the “Bank robbery and incidental crimes”
statute covers what most would think of as bank robbery—using force,
violence, or intimidation to steal property from a bank. 18 U.S.C. § 2113(a).
Less well known is that the same section of the statute also makes it a crime
to burglarize a bank—that is, to enter a bank with the intent to commit a felony
or larceny inside the bank. Id. This appeal requires us to decide whether bank
robbery and bank burglary are separate offenses or only different means of
committing the same offense.
1a
Butler v. United States
Appendix to Petitioner for Certiorari

Case: 19-10065

Document: 00515297651

Page: 2

Date Filed: 02/04/2020

No. 19-10065
The question no doubt sounds academic. But the answers to academic
questions have serious consequences under the categorial approach that
governs much of modern federal sentencing. So it is with this question about
the bank robbery statute, which determines whether a defendant should be
sentenced under the Armed Career Criminal Act.
I.
Aston Charles Butler pleaded guilty to being a felon in possession of a
firearm. See 18 U.S.C. § 922(g)(1). Although that crime ordinarily carries a
maximum penalty of ten years in prison, id. § 924(a)(2), the Armed Career
Criminal Act imposes a fifteen-year minimum when the defendant has three
prior convictions for violent felonies or serious drug offenses, id. § 924(e)(1).
Butler had four convictions for federal bank robbery and two convictions for
Texas robbery. The sentencing court concluded that Butler’s federal bank
robbery convictions constituted violent felonies. That qualified Butler as an
armed career criminal, so the court sentenced him to the fifteen-year minimum
sentence.
II.
Butler’s appeal turns on whether the federal bank robbery statute
describes two different offenses or two different means of committing the same
offense. Some background on the categorical approach we use to determine if
a crime counts as a violent felony is necessary to understand why this
distinction matters.
The Armed Career Criminal Act provides multiple definitions for
“violent felony.”

The relevant definition for this appeal is: any crime

punishable by more than one year of imprisonment that “has as an element
the use, attempted use, or threatened use of physical force against the person
of another.”

Id. § 924(e)(2)(B)(i).

That definition is called the “elements

clause.” Welch v. United States, 136 S. Ct. 1257, 1261 (2016).
2
2a
Butler v. United States
Appendix to Petitioner for Certiorari

Case: 19-10065

Document: 00515297651

Page: 3

Date Filed: 02/04/2020

No. 19-10065
The analysis a court applies to determine if a conviction satisfies the
elements clause depends on whether the offense statute is divisible. United
States v. Burris, 920 F.3d 942, 947 (5th Cir. 2019). An indivisible statute lays
out “a single . . . set of elements to define a single crime.” Mathis v. United
States, 136 S. Ct. 2243, 2248 (2016). We evaluate indivisible statutes using
the categorical approach, assessing whether the elements of the crime include
the use of force. Burris, 920 F.3d at 947. Our focus on the elements means
that we “ignor[e] the particular facts of the case.” Mathis, 136 S. Ct. at 2248.
Put differently, we ask: Does the defendant’s conviction for this crime mean he
must have used, attempted to use, or threatened to use physical force to
commit it?
A divisible statute, by contrast, “list[s] elements in the alternative, and
thereby define[s] multiple crimes.” Id. at 2249. When a statute describes
multiple crimes, the modified categorical approach permits courts to “look[] to
a limited class of documents (for example, the indictment, jury instructions, or
plea agreement and colloquy)” to figure out which of the statute’s crimes the
defendant was convicted of. Id. Once the court has narrowed down the crime
of conviction to a specific offense, it then applies the same analysis as the
categorical approach, asking whether the elements of that specific crime
include the use of force. Burris, 920 F.3d at 947.
The modified approach makes a difference when a statute describes one
offense that qualifies as a violent felony and another that does not. Any doubt
about whether a defendant committed a violent felony allows him to avoid the
enhanced punishment for armed career criminals because the categorical
approach requires “certainty.” Shepard v. United States, 544 U.S. 13, 21
(2005); see also Taylor v. United States, 495 U.S. 575, 602 (1990). But the
modified approach provides that certainty if it can narrow the defendant’s
conviction to a single qualifying offense. So it is invariably the government
3
3a
Butler v. United States
Appendix to Petitioner for Certiorari

Case: 19-10065

Document: 00515297651

Page: 4

Date Filed: 02/04/2020

No. 19-10065
that argues a statute is divisible and subject to narrowing via the modified
approach.
That is the situation here. The government asserts that section 2113(a)
describes two separate offenses. The statute reads:
Whoever, by force and violence, or by intimidation, takes, or
attempts to take, from the person or presence of another, or obtains
or attempts to obtain by extortion any property or money or any
other thing of value belonging to, or in the care, custody, control,
management, or possession of, any bank, credit union, or any
savings and loan association; or
Whoever enters or attempts to enter any bank, credit union,
or any savings and loan association, or any building used in whole
or in part as a bank, credit union, or as a savings and loan
association, with intent to commit in such bank, credit union, or in
such savings and loan association, or building, or part thereof, so
used, any felony affecting such bank, credit union, or such savings
and loan association and in violation of any statute of the United
States, or any larceny . . . .
18 U.S.C. § 2113(a).
If these paragraphs describe separate crimes, then the indictment
charging Butler’s bank robberies can be used to narrow his offense to the first
paragraph.

That indictment alleges that each of his four bank robberies

involved taking property from a bank employee “by force, violence and
intimidation.” Bank robbery by intimidation is a crime of violence, United
States v. Brewer, 848 F.3d 711, 716 (5th Cir. 2017), and a crime of violence is
also a violent felony, United States v. Moore, 635 F.3d 774, 776 (5th Cir. 2011)
(per curiam). So if the modified categorical approach applies, then Butler has
at least three violent felonies and he was properly sentenced to fifteen years.
But if section 2113(a) describes a single offense, and its two paragraphs
just set out two different means of committing that offense, then Butler
contends he is not an armed career criminal. That is because, he maintains,
4
4a
Butler v. United States
Appendix to Petitioner for Certiorari

Case: 19-10065

Document: 00515297651

Page: 5

Date Filed: 02/04/2020

No. 19-10065
one method of violating the statute—the unlawful entry method—does not
require the use of force. If he is right, then a conviction under section 2113(a)
does not necessarily mean that the defendant used physical force when he
committed the crime.

And that would mean four of Butler’s six felony

convictions would not be violent felonies, allowing him to escape the armed
career criminal classification and its minimum sentence.
III.
We reject the first link in Butler’s argument and determine that section
2113(a) is divisible.1 Recall that an indivisible statute lays out “a single . . . set
of elements to define a single crime” while a divisible statute “list[s] elements
in the alternative, and thereby define[s] multiple crimes.” Mathis, 136 S. Ct.
at 2248–49. Distinguishing between the two is sometimes difficult because
statutes often use alternative language not just to spell out different elements
but also to provide “various factual means of committing a single element.” Id.
at 2249. A statute that merely articulates alternative means of committing
the same crime is indivisible. A statute that sets out alternative elements
creates different crimes and is thus divisible.
How can we tell the difference between elements and means?

An

element is a “‘constituent part[]’ of a crime’s legal definition” that a jury must
find to be true to convict the defendant. Id. at 2248 (quoting Elements of Crime,
BLACK’S LAW DICTIONARY (10th ed. 2014)). For example, imagine a statute
“that makes it a crime (1) to take (2) from a person (3) through force or the
threat of force (4) property (5) belonging to a bank.” Richardson v. United
States, 526 U.S. 813, 817 (1999). Each numbered prerequisite is an element—
something the government must prove to secure a conviction. Id. Means, by
contrast, are different ways a defendant can satisfy an element. See id. A

1

We thus need not decide if the “unlawful entry” paragraph describes a violent felony.

5
5a
Butler v. United States
Appendix to Petitioner for Certiorari

Case: 19-10065

Document: 00515297651

Page: 6

Date Filed: 02/04/2020

No. 19-10065
defendant could meet the hypothetical statute’s third element, for instance, by
using a knife or a gun. Id. The government does not need to prove particular
means. See id. As long as each juror agrees that the defendant used “force or
the threat of force,” a jury could still convict even if it disagrees as to how he
did so. Id.
Now to the question Butler’s case presents: Does section 2113(a) outline
two different means of committing the same crime (making it indivisible) or
two different crimes with their own sets of elements (making it divisible)?
We first look to the text and structure of the statute. The intimidation
language and the unlawful entry language appear in separate paragraphs,
separated by a disjunctive “or.” 18 U.S.C. § 2113(a). Each paragraph also uses
the word “or” internally. One example from the intimidation paragraph is its
description of the object of the crime as “any property or money or any other
thing of value.” Id. (emphasis added). An example from the unlawful entry
paragraph is its requirement that the defendant have the “intent to commit . . .
any felony . . . or any larceny.” Id. (emphasis added). And an example common
to both paragraphs is language limiting their scope to situations when the
victim is a “bank, credit union, or . . . savings and loan association.”

Id.

(emphasis added).
Comparing the statute’s use of “or” between the two paragraphs to its
use of the same word within each paragraph demonstrates that the paragraphs
are meant to be different offenses with their own elements. The paragraphs
use “or” internally to set out alternative means. They do not delineate different
crimes for stealing computers as opposed to cash reserves or for robbing a bank
as opposed to a credit union. To illustrate the point differently, a defendant
commits an offense under the first paragraph only if he takes something (an
element), and that thing can be property, money, or anything else that has
value (the means).
6
6a
Butler v. United States
Appendix to Petitioner for Certiorari

Case: 19-10065

Document: 00515297651

Page: 7

Date Filed: 02/04/2020

No. 19-10065
But the “or” between paragraphs—one preceded by a semicolon rather
than commas—represents a sharper divide. Indeed, the typical means-versuselements inquiry focuses on disjunctive words within a single sentence. The
Iowa burglary statute in Mathis is an example. That law forbade unlawful
entry into “any building, structure, [or] land, water, or air vehicle,” with those
various locations serving only as different means of committing the same
offense. Mathis, 136 S. Ct. at 2250 (alteration in original) (emphasis omitted)
(quoting IOWA CODE § 702.12 (2013)); see also, e.g., Gomez-Perez v. Lynch, 829
F.3d 323, 328 (5th Cir. 2016) (holding that the Texas misdemeanor assault
statute lists different means of committing the same offense when it describes
“intentionally, knowingly, or recklessly” causing bodily injury). Butler does
not identify any case holding that separate paragraphs of a statute merely
describe different means of the same offense. That is not surprising.

In

writing, a paragraph break often signals that a new idea is coming. It is
likewise logical to conclude that a paragraph break in a statute signals a new
offense.
The different conduct each paragraph proscribes confirms what
grammar suggests. The two paragraphs evoke two different traditional crimes.
In criminalizing the taking of property from another by force or intimidation,
the first paragraph resembles traditional robbery. See Robbery, BLACK’S LAW
DICTIONARY (11th ed. 2019) (“The illegal taking of property from the person of
another, or in the person’s presence, by violence or intimidation; aggravated
larceny.”). The second paragraph’s prohibition on entry with the intent to
commit a felony or larceny resembles traditional burglary. See Taylor, 495
U.S. at 598 (“[T]he generic, contemporary meaning of burglary contains at least
the following elements: an unlawful or unprivileged entry into, or remaining
in, a building or other structure, with intent to commit a crime.”).
7
7a
Butler v. United States
Appendix to Petitioner for Certiorari

Case: 19-10065

Document: 00515297651

Page: 8

Date Filed: 02/04/2020

No. 19-10065
We have recognized that these traditionally distinct crimes, as applied
to the context of a bank, have different elements. To convict a defendant under
section 2113(a)’s first paragraph, the government must show:
(1) an individual or individuals (2) used force and violence or
intimidation (3) to take or attempt to take (4) from the person or
presence of another (5) money, property, or anything of value
(6) belonging to or in the care, custody, control, management, or
possession (7) of a bank, credit union, or savings and loan
association.
United States v. McCarty, 36 F.3d 1349, 1357 (5th Cir.1994). By contrast, the
second paragraph requires the government to prove:
(1) an entry or an attempt to enter (2) any bank, credit union, or
any savings and loan association (or building used in whole or part
as such), (3) with the intent to commit there (4) any felony (5)
affecting such bank, credit union, or savings and loan association.
United States v. Dentler, 492 F.3d 306, 310 (5th Cir. 2007). Other than a bank
or other covered financial institution being the victim, there is no overlap
between these elements. Contrast Mathis, 136 S. Ct. at 2250 (explaining that
the Iowa burglary statute “defines one crime, with one set of elements . . . while
specifying multiple means of fulfilling its locational element”).
We have not previously addressed the statute’s divisibility, but in
addition to ascribing different elements to each paragraph, we have remarked
that section 2113(a) “describes two separate offenses.” Dentler, 492 F.3d at
309; see also United States v. McGhee, 488 F.2d 781, 784 (5th Cir. 1974) (“The
two parts of the subsection are separable.”). And other circuits have uniformly
treated section 2113(a) as divisible; in only one unpublished case did the
parties even dispute the issue. See United States v. Moore, 916 F.3d 231, 238
(2d Cir. 2019) (“The parties do not contest that § 2113(a) of the federal bank
robbery statute is divisible, and we agree.”); United States v. Watson, 881 F.3d
782, 785 n.1 (9th Cir. 2018) (explaining that although the unlawful entry
8
8a
Butler v. United States
Appendix to Petitioner for Certiorari

Case: 19-10065

Document: 00515297651

Page: 9

Date Filed: 02/04/2020

No. 19-10065
paragraph “is not a crime of violence, it is irrelevant . . . because it is divisible
from the § 2113(a) bank robbery offense” the defendants were convicted of);
United States v. Rinker, 746 F. App’x 769, 772 (10th Cir. 2018) (rejecting the
same argument that Butler makes because “the bank-robbery statute is
divisible”); United States v. McGuire, 678 F. App’x 643, 645 (10th Cir. 2017)
(“Because

§ 2113(a) is divisible, we apply the modified categorical

approach . . . .”).
Prince v. United States, 352 U.S. 322 (1957), does not support a contrary
decision. Prince was convicted of two bank robbery counts—one under the
robbery paragraph of section 2113(a) and the other under the burglary
paragraph—and was given consecutive sentences. Id. at 324. The Court
explained that unlawful entry was a preparatory act and held that if the
defendant actually completed the robbery, the punishments would “merge[]”
such that he could not be sentenced consecutively. Id. at 328–29. According
to Butler, Prince suggests that section 2113(a) creates one indivisible crime
with a single punishment.
If anything, Prince supports the view that section 2113(a) establishes
separate crimes. It describes section 2113 as “creat[ing] and defin[ing] several
crimes incidental to and related to thefts from banks.” Id. at 323. “If the
Justices had a ‘one offense’ view of § 2113, then they should have held the
separate counts of Prince’s indictment to be multiplicitous.” United States v.
Loniello, 610 F.3d 488, 494 (7th Cir. 2010).

As the Seventh Circuit has

explained, “the Prince line of decisions requires merger of sentences, not of
offenses.” Id. at 496. Merger of sentences may be required even when there is
more than one underlying crime. See United States v. Vasquez, 867 F.2d 872,
875 (5th Cir. 1989) (“When Congress creates different crimes aimed at
successive stages of a single criminal undertaking, the defendant can properly
be charged and tried for multiple offenses, but may be punished only for the
9
9a
Butler v. United States
Appendix to Petitioner for Certiorari

Case: 19-10065

Document: 00515297651

Page: 10

Date Filed: 02/04/2020

No. 19-10065
commission of one offense.”); United States v. Forester, 836 F.2d 856, 861 (5th
Cir. 1988) (“Separate charges were permissible. Separate convictions were
possible. But only one sentence is appropriate.”).
***
Section 2113(a) is divisible. The sentencing court thus properly used the
bank robbery indictment to narrow Butler’s robbery convictions to the violent
felonies of taking bank property from another through intimidation. With at
least three such violent felonies, he was properly sentenced as an armed career
criminal.
The judgment is AFFIRMED.

10
10a
Butler v. United States
Appendix to Petitioner for Certiorari

Case: 19-10065

Document: 00515297661

Page: 1

Date Filed: 02/04/2020

IN THE UNITED STATES COURT OF APPEALS
Court of Appeals
FOR THE FIFTH CIRCUIT United States
Fifth Circuit
_______________________
No. 19-10065
_______________________

FILED
February 4, 2020
Lyle W. Cayce
Clerk

D.C. Docket No. 3:17-CR-562-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
ASTON CHARLES BUTLER,
Defendant - Appellant
Appeal from the United States District Court
for the Northern District of Texas
Before KING, COSTA, and HO, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed.

11a
Butler v. United States
Appendix to Petitioner for Certiorari

Case 3:17-cr-00562-N Document 56 Filed 01/22/19

Page 1 of 7 PageID 284

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

UNITED STATES OF AMERICA

§
§
§
§
§
§
§

v.
ASTON CHARLES BUTLER

JUDGMENT IN A CRIMINAL CASE

Case Number: 3:17-CR-00562-N(1)
USM Number: 42209-177
Lara Meghan Wynn
Defendant’s Attorney

THE DEFENDANT:
☐ pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S.

☒ Magistrate Judge, which was accepted by the
☐
☐

court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

Count 1 of the Indictment filed October 24, 2017.

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
18 Usc §§ 922(G)(1) and 924(E) Felon In Possession Of A Firearm

Offense Ended

Count

03/15/2017

1

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☐ Count(s) ☐ is ☐ are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

JANUARY 14, 2019
Date of Imposition of Judgment

Signature of Judge

DAVID C. GODBEY, UNITED STATES DISTRICT JUDGE
Name and Title of Judge

JANUARY 22, 2019
Date

12a
Butler v. United States
Appendix to Petitioner for Certiorari

19-10065.130

Case 3:17-cr-00562-N Document 56 Filed 01/22/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 2 of 7 PageID 285

Judgment -- Page 2 of 7

ASTON CHARLES BUTLER
3:17-CR-00562-N(1)

IMPRISONMENT
Pursuant to the Sentencing Reform Act of 1984, but taking the Guidelines as advisory pursuant to United States v. Booker,
and considering the factors set forth in 18 U.S.C. Section 3553(a), the defendant is hereby committed to the custody of the United
States Bureau of Prisons to be imprisoned for a total term of:
180 (One Hundred Eighty) months as to count 1. This sentence shall run concurrently to any sentence imposed in Case No. F1740515 in Dallas County Criminal Court 8; This sentence shall also run concurrently to any sentence imposed in Case No.
MA1740876 in the 204th Judicial District Court of Dallas County Texas.

☒ The court makes the following recommendations to the Bureau of Prisons:
That the defendant be designated to either FCI Seagoville, Texas, FCI Texarkana, Texas or FCI El Reno, Oklahoma, if
possible.

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

a.m.

☐

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

_______________________________________
UNITED STATES MARSHAL

By
_______________________________________
DEPUTY UNITED STATES MARSHAL

13a
Butler v. United States
Appendix to Petitioner for Certiorari

19-10065.131

Case 3:17-cr-00562-N Document 56 Filed 01/22/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 3 of 7 PageID 286

Judgment -- Page 3 of 7

ASTON CHARLES BUTLER
3:17-CR-00562-N(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: Four (4) years as to Count 1.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

4.

☐

5.

☒
☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et

6.

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)

7.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

14a
Butler v. United States
Appendix to Petitioner for Certiorari

19-10065.132

Case 3:17-cr-00562-N Document 56 Filed 01/22/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 4 of 7 PageID 287

Judgment -- Page 4 of 7

ASTON CHARLES BUTLER
3:17-CR-00562-N(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant’s Signature

15a
Butler v. United States
Appendix to Petitioner for Certiorari

Date

19-10065.133

Case 3:17-cr-00562-N Document 56 Filed 01/22/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 5 of 7 PageID 288

Judgment -- Page 5 of 7

ASTON CHARLES BUTLER
3:17-CR-00562-N(1)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S. Probation Office
for treatment of narcotic, drug, or alcohol dependency, which will include testing for the detection of substance
use or abuse. The defendant shall abstain from the use of alcohol and/or all other intoxicants during and after
completion of treatment. The defendant shall contribute to the costs of services rendered (copayment) at a rate
of at least $25 per month.

16a
Butler v. United States
Appendix to Petitioner for Certiorari

19-10065.134

Case 3:17-cr-00562-N Document 56 Filed 01/22/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 6 of 7 PageID 289

Judgment -- Page 6 of 7

ASTON CHARLES BUTLER
3:17-CR-00562-N(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$100.00

JVTA Assessment*
$.00

Fine
$.00

Restitution
$.00

☐ The determination of restitution is deferred until

An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

17a
Butler v. United States
Appendix to Petitioner for Certiorari

19-10065.135

Case 3:17-cr-00562-N Document 56 Filed 01/22/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 7 of 7 PageID 290

Judgment -- Page 7 of 7

ASTON CHARLES BUTLER
3:17-CR-00562-N(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
☐

Lump sum payments of $

due immediately, balance due

☐

not later than

, or

☐

in accordance

B

☐

Payment to begin immediately (may be combined with

C

☐

Payment in equal

A

☐

C,

☐

D,

☐

E, or

☐

F below; or

☐

C,

☐

D, or

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

D

☐

over a period of

(e.g., 30 or 60 days) after the date of this judgment; or

Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

F below); or

☐

over a period of

(e.g., 30 or 60 days) after release from imprisonment to a term of

supervision; or
E

☐

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

☒

Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1, which shall be due
immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

 Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several
Amount, and corresponding payee, if appropriate.

☐
☐
☒

☐ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same loss that gave rise
to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

the Kahr, Model TP 45, .45-caliber pistol bearing Serial No. SA66300.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

18a
Butler v. United States
Appendix to Petitioner for Certiorari

19-10065.136

Case 3:10-cr-00201-O Document 30 Filed 01/31/11

Page 1 of 4 PageID 119

United States District Court
NORTHERN DISTRICT OF TEXAS
Dallas Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
Case Number: 3:10-CR-201-O (01)
U.S. Marshal's No.: 42209-177
John Kull, Assistant U.S. Attorney
Laura Harper, Attorney for the Defendant

v.

ASTON BUTLER

On October 7, 2010, the defendant, ASTON BUTLER, entered a plea of guilty to Counts One, Two, Three and Four of
the Four Count Indictment filed on July 20, 2010. Accordingly, the defendant is adjudged guilty of such Counts, which involve
the following offenses:
Title & Section

Nature of Offense

Date Offense Concluded

Count Number(s)

18 U.S.C. § 2113(a)

Bank Robbery

May 12, 2010

1

18 U.S.C. § 2113(a)

Bank Robbery

May 21, 2010

2

18 U.S.C. § 2113(a)

Bank Robbery

June 1, 2010

3

18 U.S.C. § 2113(a)

Bank Robbery

June 9, 2010

4

The defendant is sentenced as provided in pages two through four of this judgment. The sentence is imposed pursuant
to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing Commission pursuant
to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $400.00 for Counts One, Two, Three and Four of the Four
Count Indictment filed on July 20, 2010.
The defendant shall notify the United States Attorney for this district within thirty days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid.
Sentence imposed on January 20, 2011.

_____________________________________
REED O'CONNOR
U.S. DISTRICT JUDGE

Signed January 31, 2011.

19a
Butler v. United States
Appendix to Petitioner for Certiorari

Judgment
a Criminal Case
Casein3:10-cr-00201-O
Document
Defendant: ASTON BUTLER
Case Number: 3:10-CR-201-O (01)

30 Filed 01/31/11

Page 2 of 4 PageID 120

Judgment -- Page 2 of 4

IMPRISONMENT
The defendant, ASTON BUTLER, is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned
for a period of THIRTY-SIX (36) months on Counts One through Four, which shall run concurrently, for a total term of
THIRTY-SIX (36) months. The court orders this sentence to run concurrently with any sentence imposed in any of the
following cases: Case No. F-1041442, which is pending out of the 363rd Judicial District Court of Dallas County, Dallas, Texas;
Case No. MB1041854, which is pending in the Dallas County Criminal Court 6, Dallas, Texas; and, Case No. F-2010-0647,
which is pending in the 367th Judicial District Court of Denton County, Denton, Texas.
The Court would recommend to the Bureau of Prisons that the defendant participate in the Institution Residential Drug
Treatment Program, if eligible. The Court further recommends that the defendant be incarcerated at facility in the D/FW area,
if possible.

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of THREE (3) years
on Counts One, Two, Three and Four of the Four Count Indictment filed on July 20, 2010, which shall run concurrently, for
a total term of THREE (3) years .
W hile on supervised release, in compliance with the standard conditions of supervision adopted by the United States
Sentencing Commission, the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)
(10)
(11)
(12)
(13)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful and
complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling, training,
or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to confirm
the defendant's compliance with such notification requirement, as directed by the probation officer.

In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;

20a
Butler v. United States
Appendix to Petitioner for Certiorari

Judgment
a Criminal Case
Casein3:10-cr-00201-O
Document
Defendant: ASTON BUTLER
Case Number: 3:10-CR-201-O (01)

30 Filed 01/31/11

Page 3 of 4 PageID 121

Judgment -- Page 3 of 4

cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the probation office in the district to which the defendant is released within seventy-two (72) hours
of release from the custody of the Bureau of Prisons;
submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as
directed by the probation officer;
pay any remaining balance of restitution in the amount of $23,864.00, as set out in this Judgment;
refrain from incurring new credit charges or opening additional lines of credit without approval of the probation officer
unless the probation officer makes a determination that the defendant has fully satisfied the restitution obligation;
provide to the probation officer any requested financial information;
participate in a program (inpatient and/or outpatient) approved by the U.S. Probation Office for treatment of narcotic,
drug, or alcohol dependency, which will include testing for the detection of substance use or abuse. The defendant shall
abstain from the use of alcohol and/or all other intoxicants during and after completion of treatment;
participate in mental health treatment services as directed by the probation officer until successfully discharged. These
services may include medications prescribed by a licensed physician. The defendant shall contribute to the costs of
services rendered (copayment) at a rate of at least $5 per month; and,
participate in workforce development programs and services involving activities relating to occupational and career
development, including but not limited to assessments and testing, educational instruction, training classes, career
guidance, counseling, case management, and job search and retention services, as directed by the probation officer until
successfully discharged from the program.

FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial resources or
future earning capacity to pay a fine or costs of incarceration.
Pursuant to the Mandatory Victims Restitution Act of 1996, the defendant is ordered to pay restitution in the amount of
$23,864.00, payable to the U.S. District Clerk, 1100 Commerce Street, 14 th Floor, Dallas, Texas, 75242. Restitution shall be
payable immediately and any unpaid balance shall be payable during incarceration. Restitution shall be disbursed to:
BBVA Compass Bank
Attention: Security
$2,700
Reference No.: 10-02980, May 12, 2010 Robbery
Wells Fargo
Attention: Dan Everingham, Vice President
$1,963
Reference No.: AU-41803, May 21, 2010, Robbery
BBVA Compass Bank
Attention: Security
$4,720
Reference No.: 10-03218, May 24, 2010, Robbery
American Bank of Texas
Attention: Patsy Mauldin, Vice President
$6,099

21a
Butler v. United States
Appendix to Petitioner for Certiorari

Judgment
a Criminal Case
Casein3:10-cr-00201-O
Document
Defendant: ASTON BUTLER
Case Number: 3:10-CR-201-O (01)

30 Filed 01/31/11

Page 4 of 4 PageID 122

Judgment -- Page 4 of 4

Reference: Aston Butler, June 1, 2010, Robbery
Wells Fargo
Attention: Dan Everingham, Vice President
$7,660
Reference No.: AU-72349 June 5, 2010, Robbery
Bank of Texas
Attention: Mike Criswell, Security Services Manager
$722
Reference: Aston Butler, June 9, 2010, Robbery
If upon commencement of the term of supervised release any part of the restitution remains unpaid, the defendant shall
make payments on such unpaid balance in monthly installments of not less than 10 percent of the defendant’s gross monthly
income, or at a rate of not less than $50 per month, whichever is greater. Payment shall begin no later than 60 days after the
defendant’s release from confinement and shall continue each month thereafter until the balance is paid in full. In addition,
at least 50 percent of the receipts received from gifts, tax returns, inheritances, bonuses, lawsuit awards, and any other
receipt of money shall be paid toward the unpaid balance within 15 days of receipt. This payment plan shall not affect the
ability of the United States to immediately collect payment in full through garnishment, the Treasury Offset Program, the
Inmate Financial Responsibility Program, the Federal Debt Collection Procedures Act of 1990 or any other means available
under federal or state law. Further, it is ordered that interest on the unpaid balance is waived pursuant to
18 USC § 3612(f)(3) .

RETURN
I have executed this judgment as follows:

Defendant delivered on _________________________ to________________________________________________
at____________________________________________________________, with a certified copy of this judgment.
__________________________________
United States Marshal
BY _______________________________
Deputy Marshal

22a
Butler v. United States
Appendix to Petitioner for Certiorari

